NO: 20-1007

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
RRL HOLDING COMPANY OF OHIO, ET AL., RESPONDENTS

PETITION FOR REHEARING
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

CERTIFICATE OF SERVICE
I, MERRILEE STEWART, Petitioner, hereby certify that on this 21st day of April,
2021,1 caused true copies of this PETITION FOR REHEARING to be served via
electronic delivery on the following counsel representing respondents and to Dave
Yost by regular United States mail.
James R. Carnes (0070005)
Matthew T. Kemp (0093136)
Shumaker, Loop & Kendrick, LLP
1000 Jackson Street
Toledo, Ohio 43604
Telephone: (419) 241-9000
Emails: jcarnes@shumaker.com
mkemp@shumaker.com
Attorneys for the Respondents

Dave Yost
Ohio Attorney General
150 E Gay St 21st Floor
Columbus, OH 43215
(614) 466-4986

Respectfully,
/

Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

